<html>
<title> - BANGLADESH IN TURMOIL: A NATION ON THE BRINK</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







                        BANGLADESH IN TURMOIL: 
                         A NATION ON THE BRINK

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 20, 2013

                               __________

                           Serial No. 113-85

                               __________

        Printed for the use of the Committee on Foreign Affairs






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

85-642 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                      STEVE CHABOT, Ohio, Chairman
DANA ROHRABACHER, California         ENI F.H. FALEOMAVAEGA, American 
MATT SALMON, Arizona                     Samoa
MO BROOKS, Alabama                   AMI BERA, California
GEORGE HOLDING, North Carolina       TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            BRAD SHERMAN, California
DOUG COLLINS, Georgia                GERALD E. CONNOLLY, Virginia
LUKE MESSER, Indiana                 WILLIAM KEATING, Massachusetts












                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ali Riaz, Ph.D., public policy scholar, Woodrow Wilson Center....     6
Maj. General A.M.N. Muniruzzaman, president, Bangladesh Institute 
  of Peace and Security Studies..................................    23
Mr. John Sifton, Asia advocacy director, Human Rights Watch......    34

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ali Riaz, Ph.D.: Prepared statement..............................     9
Maj. General A.M.N. Muniruzzaman: Prepared statement.............    25
Mr. John Sifton: Prepared statement..............................    36

                                APPENDIX

Hearing notice...................................................    52
Hearing minutes..................................................    53
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    54

 
                        BANGLADESH IN TURMOIL: 
                         A NATION ON THE BRINK

                              ----------                              


                      WEDNESDAY, NOVEMBER 20, 2013

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:55 p.m., in 
room 2172, Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the subcommittee) presiding.
    Mr. Chabot. The subcommittee will come to order. Good 
afternoon.
    I am Steve Chabot, chair of the subcommittee. I want to 
apologize for not being able to start on time. We had votes on 
the floor, so that is the reason we are starting a little bit 
late. For any inconvenience to anybody, we apologize.
    I would like to welcome everyone, my colleagues and our 
distinguished witnesses to the Subcommittee on Asia and the 
Pacific hearing this afternoon. Mr. Faleomavaega, our ranking 
member, unfortunately cannot be with us today, but we are 
pleased to have Representative Tulsi Gabbard from Hawaii. She 
will be able to take the position as ranking member here this 
afternoon. We are also joined by Ms. Meng this afternoon. I ask 
unanimous consent that she be permitted to sit in with the 
subcommittee and be recognized to speak after all members of 
the subcommittee have been recognized.
    Without objection, so ordered.
    The Bangladesh story has been an impressive one. It is a 
nation that has worked hard to lift itself from the war-torn 
ruins left behind by its bloody 1971 war of independence from 
Pakistan. Over the last 20 years, there has been marked 
progress, especially on the economic front, as Bangladesh has 
grown into a crucial link between the dominant economies within 
the Indo-Pacific economic corridor. Strategically located 
between Asia's two powerhouses, India and China, and promptly 
situated within the arc of Islam that extends from the Middle 
East into the Southeast Asia, Bangladesh plays a key role in 
maintaining regional stability.
    As a moderate, secular nation, Bangladesh has become an 
important security partner for the United States in the fight 
against terrorism and Islamic extremism in South Asia, as well 
as a collaborator on humanitarian assistance, peacekeeping 
operations, and maritime security.
    While there have been some noteworthy economic and social 
improvements, particularly over the past decade, Bangladesh is 
still a very poor country with an estimated 153 million people 
who live in poverty. And, sadly, conditions for many working 
Bangladeshis remain dangerous and unhealthy. Six months after 
the tragedy at Rana Plaza, in which 1,127 Bangladeshi workers 
were killed, changes have been slow to materialize.
    Corruption also remains a significant obstacle to 
Bangladesh's place in the world economy and the government's 
sluggish efforts to combat it will only serve as a further 
impediment to its economic growth.
    As Bangladesh approaches its national elections, which are 
likely to take place in early January, the country is in a 
state of political turmoil. In Bangladesh, ``politics as 
usual,'' I am afraid, takes on a much harsher meaning than it 
does in many societies. As the major political parties ramp up 
their campaigns, operatives utilize strikes, riots, and 
blockades to destabilize the country and call attention to 
their grievances.
    When I visited Bangladesh about 2 weeks ago, we arrived at 
the onset of a 3-day general strike--essentially shutting down 
commerce--called by the opposition Bangladesh National Party, 
BNP. During our stay, there were numerous reports of violence.
    While in Dhaka, I had the opportunity to meet with both the 
Prime Minister, Sheikh Hasina, of the Awami League, and the 
opposition leader, former Prime Minister Khaleda Zia, of the 
BNP. During those meetings, I expressed my view that the 
national elections should be free and fair, transparent, and 
without violence. Both leaders were adamant in their positions. 
Sheikh Hasina insisted that provisions were in place to conduct 
a fair election. Madam Zia maintained that a fair election 
could not be held without a caretaker government in place to 
ensure transparency. As of today, the two sides remain at odds 
and it is still uncertain whether or not the opposition BNP 
will boycott the election.
    In meetings with the leaders, I stressed the need to 
curtail the growing violence, which can only bring about 
further instability--possibly leading to the expansion of 
extremist groups and creating a vacuum that could create 
broader security risks for the region.
    I also expressed my concerns about Bangladesh's 
International Crimes Tribunal, which was created by Sheikh 
Hasina in 2010 to investigate alleged crimes committed during 
the 1971 war for independence, about 42 years ago. Opposition 
leaders view the tribunal as a vehicle for the incumbent 
leadership to punish its enemies and strengthen its hand in the 
lead up to the elections. Since the tribunal began handing down 
death sentences in February, numerous outbreaks of violence 
have occurred.
    Critics of the tribunal, many of whom agree that trials 
should be held and that the guilty should be punished, maintain 
that international standards are not being applied. When I 
brought this up with the Foreign Minister, I was told, ``We are 
actually creating new international standards.'' Based on some 
of the reports I heard about the conduct of the trials, that 
response was not very reassuring, particularly in light of 
concerns expressed by U.S. Ambassador Steven Rapp, who heads 
the State Department's Office of Global Criminal Justice and 
was a former prosecutor of the Sierra Leone and Rwanda trials.
    Ambassador Rapp, who has visited Bangladesh three times in 
an attempt to advise the ICT and the government on 
international standards, was largely ignored. Among the issues 
about which he expressed concerns were: Interrogation without 
cause, lengthy pretrial detentions, a lack of sufficient 
protections for witnesses and victims, and allowing prosecutors 
to call more witnesses than defendants were allowed to call. 
Hopefully, we can have some discussion about the court this 
afternoon among many other issues that we will be discussing.
    In a nutshell, I would say that Bangladesh has much going 
for it and much standing in the way of its continuing progress. 
I look forward to hearing from our excellent panel of witnesses 
here this afternoon and hope we can address some of the issues 
in greater detail. I would now like to call out the gentleman 
from California, the ranking member of the TNT subcommittee, 
Brad Sherman from California, to make a statement.
    Mr. Sherman. I regret my wife isn't here; she spent a year 
working in Bangladesh with BRAC, the then Bangladesh Rural 
Advancement Committee. I regret I can't spend time here, but I 
have got to go to our subcommittee to deal with Syria.
    I look forward to reading the transcript, and I hope the 
witnesses will focus on at least two points. One of those is 
the rights of Hindus in Bangladesh. I am glad to see that the 
Vested Property Act, which allowed the confiscation of property 
from a large number of Hindus, I believe has been repealed. But 
I am concerned that successive administrations have not taken 
steps to return the land expropriated from Hindus under the 
law. And I am concerned with the other human rights abuses I 
hear visited on religious minorities in Bangladesh. And that is 
why so many of us have cosponsored the bill to establish a 
separate office in the State Department to deal with religious 
minorities in the Middle East and South Asia.
    Second, I am concerned about Muhammad Yunus and the Grameen 
Bank, which, of course, won the Nobel Prize for their 
outstanding work in development. The government has moved 
toward, in effect, taking it over, pushing Yunus out as 
managing director. And I hope the witnesses will address that 
issue. I look forward to reading your comments. Thank you.
    Mr. Chabot. I thank the gentlemen.
    I would now like to recognize the acting ranking member 
today, Ms. Gabbard, for 5 minutes to make an opening statement.
    Ms. Gabbard. Thank you very much, Mr. Chairman.
    I appreciate your holding this very important hearing today 
and would like to also thank our witnesses for joining us and 
everyone who took the time to come to discuss these important 
issues that we all care very much about.
    There is no question, as the name and focus of this hearing 
suggests, Bangladesh is currently in a state of turmoil. As the 
country heads toward election early next year, there are many 
concerns about the stability of the country, which has come to 
share significant ties with the U.S. on so many fronts, whether 
it be counterterrorism or trade or the mitigation of natural 
disasters. As our relationship continues to grow, part of this 
growing friendship creates the opportunity for us to have 
candid conversations whenever there are concerns that arise, 
which we will have today.
    I am particularly concerned over issues, as Mr. Sherman 
mentioned, regarding religious freedom and specifically over 
attacks on the minority Hindu community remaining in Bangladesh 
today. I think it is unfortunate that sometimes perpetrators of 
crimes against this community go unpunished, and it is up to 
the Government of Bangladesh to act authoritatively against 
those who incite and commit violence against anyone and protect 
the rights of all minorities. I look forward to this 
subcommittee under the leadership of our chairman as well as 
another subcommittee for the Foreign Affairs Committee as a 
whole in taking up this issue in particular.
    Additionally, the languishing labor situation in this 
country is troublesome. Since the Rana Plaza tragedy in April, 
where over 1,100 garment workers were killed and over 2,500 
injured, there was a renewed focus on the labor sector by the 
government and the private sector. Both do carry a 
responsibility to ensure that worker rights and safety 
standards are being met in that country.
    Changes seem to be slow in coming. On November 18, the Wall 
Street Journal reported that Walmart found still more than 15 
percent of the factories in its initial round of safety 
inspections in Bangladesh failed safety audits. The U.S. 
continues to be concerned about the political deadlock between 
the two major political parties, in particular around the 
upcoming elections and the increase in violence that this 
deadlock creates.
    Our Assistant Secretary for South and Central Asia, Nisha 
Biswal, just returned from Bangladesh and reiterated the U.S.'s 
position that the opposing parties must come to an agreement 
over the elections to ensure that there is a prevention of any 
further violence. We hope that both parties engage directly in 
a constructive dialogue in order to create this environment for 
free, fair, and credible elections to occur. I think that this 
will be a critical measure as we look at the U.S.-Bangladesh 
relations moving forward.
    There are areas where Bangladesh has seen improvement. The 
economy has grown 6 percent per year over the last 2 decades, 
despite a range of challenges. The poverty rate has dropped 
from 40 percent to 31.5 percent over just the last 5 years, 
lifting millions out of poverty. And it is important for us to 
take note of these metrics and to see how we can continue to 
grow in this area.
    I think Bangladesh's long-term prospects are strong 
primarily because of the strength of its human capital. The 
population is young, hard-working, and the people as a whole 
are resilient. Overcoming these areas of concern to expand 
growth is key to ensuring the success of Bangladesh. I look 
forward to our discussion today to see how we can continue to 
engage to address some of the human rights concerns, the 
concerns around religious freedom and persecution, and make 
sure that all people are protected as this great country grows 
both economically and past political instability.
    Thank you again, Mr. Chairman. I yield back.
    Mr. Chabot. Thank you very much, Madam Chair.
    I will now introduce our distinguished panel here this 
afternoon. I will begin with Dr. Ali Riaz, who is a public 
policy scholar at the Woodrow Wilson Center here in Washington. 
He is currently on a sabbatical leave from Illinois State 
University, where he is the chair of the Department of Politics 
and Government. Previously, Dr. Riaz taught at the University 
of Bangladesh, England, and the University of South Carolina. 
Additionally, he worked as a broadcast journalist for the BBC 
World Service in London and has a long list of publications 
focused on South Asia politics. We welcome you here this 
afternoon, Doctor.
    I would also like to introduce Major General Muniruzzaman, 
who is currently the president of the Bangladesh Institute of 
Peace and Security Studies, as well as the current chairman of 
the Global Military Advisory Counsel on Climate Change. He is a 
former career military officer who served 37 years active duty 
and had the distinction of serving as the military secretary to 
the President of Bangladesh. General Muniruzzaman is a graduate 
of the Malaysian Armed Forces Staff College, National Defense 
College, National University of Bangladesh, and the United 
States Naval War College. He led the Bangladesh country 
contingent to the U.N. Transitional Authority in Cambodia and 
led the past election U.N. Mission in Cambodia to monitor the 
political and security situation in that country. He sits on 
the Board of Governors of Council for Asian Transnational 
Threat Research and is a frequent speaker on international 
security and policy issues.
    We thank you, General, for being here to afternoon.
    Our final witness is John Sifton, the Asia advocacy 
director at Human Rights Watch, where he works primarily on 
South and Southeast Asia. He previously served as the director 
of One World Research, a public interest research and 
investigation firm. Prior to that, he spent 6 years as a 
researcher in the Asia division at Human Rights Watch. Mr. 
Sifton also worked for the International Rescue Committee on 
Afghanistan and Pakistan issues and at a refugee advocacy 
organization in Albania and Kosovo. He holds a law degree from 
New York University and a bachelor's degree from St. John's 
College in Annapolis.
    We welcome you here as well, Mr. Sifton.
    This afternoon, we will be going by what we call the 5-
minute rule. Each of you will have 5 minutes. A yellow light 
will come on when you have 1 minute left. Please try to wrap up 
by the time the red light comes on. We will give you a little 
leeway, but we ask that you wrap up as close as possible once 
the red light comes on.
    Mr. Connolly. Mr. Chairman?
    Mr. Chabot. Yes.
    Mr. Connolly. Mr. Chairman, I want to thank you for holding 
this hearing. Unfortunately, I have another commitment. I would 
ask unanimous consent that my opening statement be entered into 
the record.
    Mr. Chabot. Without objection.
    If you would like to make a brief opening statement, I 
would allow it.
    Mr. Connolly. I am glad we are holding this hearing. I 
think Bangladesh is a very important nation, obviously, in 
Southeast Asia and with a lot of challenges but also enormous 
promise. So I applaud you and the ranking member for exploring 
those issues and hopefully working through our bilateral 
relationship to a more fruitful end.
    Mr. Chabot. Thank you very much. Appreciate it.
    Okay. Dr. Riaz, you are recognized for 5 minutes. If you 
each would hit the button when you are testifying then the mike 
will start operating. Thank you.

 STATEMENT OF ALI RIAZ, PH.D., PUBLIC POLICY SCHOLAR, WOODROW 
                         WILSON CENTER

    Mr. Riaz. Thank you, Chairman Chabot, the members of the 
committee. Thank you for inviting me to discuss the political 
situation in Bangladesh. I have submitted a written testimony. 
Please accept that one as my statement, and I will summarize 
some of the points that I have mentioned in my written 
statement.
    As we all know, Bangladeshi politics is once again at the 
crossroads. In recent months the situation has taken a violent 
turn as the opposition organized several general strikes, which 
led to death and destruction, and has threatened more in the 
coming days. The human cost of the violence is rising rapidly.
    The government, on the other hand, has used excessive force 
to quell the opposition and resorted to the prosecution of the 
opposition leaders. The immediate reason for the current 
political impasse can be traced back to the 15th amendment of 
the constitution, which removed the caretaker government, which 
ensured free, fair elections since 1996. The point of 
contention is whether the election time government should be 
comprised of political leaders or nonpartisan individuals.
    The opposition alliance led by the BNP insists that the 
government manned by politicians will influence the election 
result in favor of the incumbent. The fundamental reasons for 
the introduction of the caretaker government in 1996 were the 
absence of trust among the political parties and of strong 
institution that can be trusted to hold an acceptable election. 
While current incumbent and opposition parties have been in 
power since 1991, neither has tried to create necessary 
institution nor has the climate of mistrust changed. Public 
opinion polls since the removal of the system show an 
overwhelming support for a neutral caretaker government during 
the elections.
    And the second point is the importance of an inclusive 
election. The upcoming election is important at both domestic 
and regional levels with significance for the U.S.-Bangladesh 
relationship. Since transitioning from military rule in 1991, 
Bangladesh it had four inclusive election but didn't produce a 
very significant democratic institution.
    One of the key issues is the International Crime Tribunal 
that you have mentioned. These trials are of those who 
perpetrated genocide and committed crimes against humanity 
during the War of Independence in 1971. Trying the war criminal 
was an election promise of the Awami League. Despite some 
reservations about the trial process, opinion polls have shown 
that the majority of Bangladeshi citizens support the work of 
the ICT. Whether it plays a role upcoming election or not, in 
my opinion, the trial of those who committed crimes against 
humanity in 1971 should continue. This was long overdue. 
Without dealing with the painful past and delivering justice, 
the nation won't be able to move forward.
    What are the future trajectories? We see three options at 
this point, three possible scenarios. One is a routine 
election, participated by all parties. However, given the 
uncompromising positions of the ruling and opposition parties, 
it is an unlikely scenario at this moment. Accomodation of some 
of the demands of the opposition, perhaps a cabinet not headed 
by the incumbent PM is the way out within the current 
constitutional proviso. Opposition should be ready to make 
compromises.
    Number two, an election boycotted by the opposition. This 
scenario is close to what happened in February 1996, when the 
BNP unilaterally ran a sham election. Despite the apparent 
similarities between 1996 and 2013, the situation on the ground 
is different this time around. Few allies of the ruling party 
will join the election. The legitimacy of such an election is 
an open question. Such elections do not produce a durable 
Parliament nor bring political stability.
    Third option is the deferral of the election. It can be 
done within the purview of the current constitution or through 
extra-constitutional steps to be ratified post-facto by the 
next Parliament. One of the articles of the Bangladesh 
constitution stipulates that election will be held within 90 
days after the dissolution of the Parliament. Therefore, if 
Parliament is dissolved, the window of time can be used to 
formulate a solution through mediation between political 
parties.
    Since the caretaker government issue was never placed 
before the public for approval, one way out could be a 
referendum on the issue during the extended period. The general 
election can follow based on the election results of the 
referendum. This would give all parties a sense of victory. 
Finally, the role of the international community.
    The United States and the international community can take 
the following steps that I would recommend. Number one, instead 
of focusing on elections every 5 years, as tension escalates, 
the United States should emphasize on the quality of democracy. 
Concrete action steps should be laid out to be followed by the 
political parties. For adherence to each step, the country 
should be rewarded with benefits that help the entire 
population or the most productive sectors of the country. For 
example, the restoring the GSP, easing the tariff barriers the 
productive sectors, especially ready-made garments.
    Number two. Building institutions for sustainable and 
quality democracy such as strong election commission should be 
the key focus of the international community, and commitment 
for long-term engagements is necessary.
    Number three. The United States should make clear 
statements in regard to the post-election tolerance, including 
safeguarding the weaker section of the society, particularly 
religious minorities and the results of those fallout.
    Number four, encourage all parties to agree on containing 
religious extremism.
    Number five, international community should neither 
franchise its responsibilities to regional powers, nor should 
the regional powers be excluded from this international effort. 
In particular, India's valid security concerns must be 
addressed. An institutional structure should be created to 
ensure that domestic political environment in Bangladesh does 
not threaten its neighbor or the regional security.
    The present political crisis in Bangladesh can be turned 
into an opportunity to build a stable, democratic, prosperous 
country. Economic and social achievements of recent decades 
show that citizens are capable of taking steps in the right 
direction. It is time for Bangladeshi political leaders to take 
the right decisions. That is, to hold an inclusive election, 
agree on post-election tolerant behavior; rein in extremism; 
commit to address the issue of war crimes judiciously; and 
commit to regional peace. And it is time for the international 
community to help them in this regard. Thank you for this 
opportunity to testify. I will be happy to answer any questions 
you may have.
    Mr. Chabot. Thank you very much.
    [The prepared statement of Mr. Riaz follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Chabot. General, you are recognized for 5 minutes.

   STATEMENT OF MAJ. GENERAL A.M.N. MUNIRUZZAMAN, PRESIDENT, 
       BANGLADESH INSTITUTE OF PEACE AND SECURITY STUDIES

    General Muniruzzaman. Mr. Chairman, and honorable member, 
thank you again for inviting us to testify before this 
committee. What I would like to start by saying that I shall 
cover some of the salient points of the recent testimony that I 
have given and address the main issues of the questions that 
are posed to me.
    It is important to say that a combination of multiple 
forces of political violence, weak governance, corruption, 
poverty, and rising Islamic militancy is very rapidly haunting 
the very core of the Bangladeshi state and turning it into a 
fragile state. The lack of political trust between the two 
political parties and particularly between the two leaders of 
the parties has meant that democratic process in the country is 
dysfunctional. The current state of political impasse comes 
with a very resolution that was passed and the amendment that 
was passed in the Parliament of the 15th amendment, which 
people perceive was done by the government with ulterior 
motives. The result of protests by the opposition and its 
allies, including the Jammat-e-Islami, has brought widespread 
violence on the street and has resulted in over 200 deaths in 
the last few months and injured many more.
    Experience of Bangladesh's history of elections shows that 
incumbent government has the capacity and the means to 
manipulate and rig election. Therefore, a wide majority of the 
people want a neutral caretaker government to hold elections. 
And that is only way out of the current political impasse in 
the country. The country has had weak governance for many years 
and the state of law and order was poor and crime was on the 
rise. There were political force disappearances over the last 
few years; industrial labor standards were very appalling, 
resulting in Rana Plaza incidents with impunity. We also saw 
the squeezing of the space of civil society, and the role of 
civil society has been curbed over the last few years. And the 
freedom of press and expression is under threat, as journalists 
are in jail for expressing their opinions. TV channels and 
newspapers have been closed. And the culture of winner-take-all 
approach has made the government's position very rigid.
    There is also widespread corruption in the country, and the 
prevalent crony capitalism persists. It is also important to 
say that the property reduction that has taken place over the 
last few years has also been hit by the government stance 
against the Grameen Bank and politically against Professor 
Yunus.
    I would like to say that there is the riding tendency of 
Islamic militarism in Bangladesh, and that is going to hit at 
the very core of the Bangladesh's stand as a secular and a 
moderate state. The reasons for this rise is due to a multiple 
forces of internal impacts and external impacts. But the part 
that I would like to very much emphasize here before this 
committee is that the current state of political intolerance by 
the government toward its opposition and the current state of 
the political violence that persists in the country, if this 
continues, the country will soon enter a phase of instability. 
And any instability in Bangladesh will create the ground for 
militant parties and organizations to thrive and expand their 
scope of operation within the country.
    We also see that any militant operations in Bangladesh will 
have impacts on the regional security particularly because of 
the 19th--2014 withdrawal of the U.S. Forces from Afghanistan, 
where the security of the region will become very fragile. I 
would also like to say that in this state of fragility, the 
relationship between the United States and Bangladesh needs to 
be observed very carefully.
    A question was also posed, what needs to happen for a 
stable, secure, and accountable government in Bangladesh? What 
I would like to say that we first need a change of political 
culture. We need important government organizations to be 
reformed, including the judiciary, which has to be free and 
accountable. We need enforcement to make election commission, 
anti-corruption commission, and other bodies more functional. 
There has to be a definite role of the civil society in 
expanding the space and making the government accountable. The 
system of impunity by government and its cronies has to stop so 
that the rule of law can be established. And we need a free and 
a robust media, and media should not be hampered by the 
government. We also need political forces on issues of state, 
and we need national policies, not personal and private 
policies. We need an educated population to enforce that the 
governments are held accountable.
    A very interesting question was also posed to me saying 
that in this current of state of the impasse and the political 
violence that persists in the country, will it raise the army 
coming into play in a military coup? My answer to this 
question, the military does not have a role in solving 
political problems in a democratic country. And having seen the 
experience of 2007, I also feel that the military does not also 
have the appetite for that. But the fact remains that the 
military remains the only credible and acceptable institution 
in the country. In spite of the politicalization of all state 
institutions by the current government, the military has 
remained apolitical, and therefore, the military should play 
the role that is in the best interests of the country, but I 
presume that if the violence persists, the military at a time 
may be sucked into the process. But that is not something that 
you should welcome. I once again say that thank you for the 
hearing. And I would hope that our international friends and 
partners continue to engage Bangladesh so that Bangladesh 
doesn't slip into a state of violence and become, say, fragile 
to a failed state. Thank you.
    Mr. Chabot. Thank you, General.
    [The prepared statement of General Munruzzaman follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Chabot. Mr. Sifton, you are recognized for 5 minutes.

  STATEMENT OF MR. JOHN SIFTON, ASIA ADVOCACY DIRECTOR, HUMAN 
                          RIGHTS WATCH

    Mr. Sifton. Thank you for inviting me to testify today at 
this very well-timed hearing. The other witnesses have already 
discussed Bangladesh's dire political situation and the risks 
it presents.
    I would like to focus on the specific human rights issues 
that the current political impasse has brought to bear and 
describe in more detail exactly how they will be affected by 
the events of the hour.
    So let me first discuss the key human rights issues in play 
in this current political impasse. The parameters of the 
standoff are well documented. The ruling party, the Awami 
League, has refused the BNP's demands for a caretaker 
government. As a result, and as the other witnesses have 
already said, there is a very real possibility that the BNP and 
most of its political allies will boycott the election, and 
thus the subsequent Parliament and the government that those 
elections would create.
    So let's discuss what that will lead to. With that 
instability will come political volatility. In boycotting 
before and after the elections, the BNP and its allies will 
presumably hold protests, cartels, shutting down transit, and 
economic activity in key urban areas. And in response, state 
security forces will use force of varying types; some of it 
responsive, some of it proactive. And perhaps none of this 
would be too worrisome in the abstract were it not for the fact 
that cartels and security forces' responses to them are almost 
always accompanied by violence. Mob attacks by the political 
factions and excessive use of force by state actors. And some 
of the worst violence so far this year occurred between gangs 
of rival party activists, both from the Awami League, BNP, and 
Jamaat, none of whose leaders, it should be noted today, have 
done much to restrain their supporters during that violence.
    Many people are likely to be injured in the future 
political violence that would accompany a boycott and likely a 
large number of people will be killed. Many people will also be 
detained. And I want to emphasize that this political violence 
is illegal violence. Every government is entitled, even 
obligated, to use police powers to maintain order, even the use 
of force, so long as it is proportional and not excessive.
    The problem is that in Bangladesh, security forces usually 
don't exercise force and measured and proportional way. Human 
Rights Watch has documented Bangladeshi security forces using 
excessive force in responding to street protests for years, but 
including major violence this year, for instance, the violence 
in early May that killed approximately 50 people. By our 
estimates, security forces have killed almost a 150 people and 
injured as least 2,000 since February of this year. And while 
large numbers of protesters have been arrested, the Bangladeshi 
authorities haven't held anybody accountable among the security 
forces for excessive force.
    So this political instability is going to make matters 
worse. And if the best predictor of future behavior is past 
behavior, we have very serious causes for concern.
    But the violence is not the only concern. Heightened 
political volatility in coming weeks and months is going to 
lead to other kinds of abuses of civil and political rights. 
Crackdowns on freedom of speech, harassment of journalists' 
activities, civil society groups. This is already underway. The 
committee is aware, of course, that a key human rights group in 
Bangladesh, Odhikar, had several members jailed this year. One 
remains in custody. The harassment of Odhikar continues. I went 
to Odhikar's offices last week in Dhaka during a passing visit 
to Bangladesh, and there were two men on each corner of the 
street who, from looks and manner, I took to be plainclothes 
police officers. Their overt surveillance was, frankly, 
pathetic and thuggish. If nothing else comes of this hearing, 
we can at least call on Bangladesh's Government to end this 
shameful harassment of civil society groups.
    The committee is also aware that overbroad and vague laws, 
such as the Information Communication Technology Act, are being 
used to target groups simply for acts of free speech. This act 
has been used not only against Odhikar but against journalists 
and against bloggers in recent months. The breakdown of the 
political order in Bangladesh is also going to have knockoff 
effects on other human rights issues beyond the political 
realm. There are many other human rights issues in Bangladesh, 
as the committee is aware. Women's rights issues, which Human 
Rights Watch has reported on; the labor rights issues that are 
the issue of the day; and international justice issues 
connected to the tribunal.
    Human Rights Watch has supported and continues to support 
efforts to hold perpetrators responsible for the terrible 
crimes of the 1971 conflict. But as the chairman has made clear 
already, that tribunal has been marred by deficiencies which 
have undermined the integrity of its processes. And since this 
process includes the death penalty, there is good reason for 
human rights groups, such as ours, to be quite concerned.
    So all of these important human rights issues will be 
impacted by the possible breakdown of political order in 
Bangladesh. The consequences are clear.
    So what can be done to address all of this? Well, the 
United States and other governments have already stated their 
concerns from Secretary of State Kerry writing to Sheikh Hasina 
and the leaders of the opposition to your visit 2 week ago to 
secretary--Assistant Secretary Nisha Biswal's visit just this 
past weekend. The message has been delivered. But it will help 
for Congress to further reinforce that message and back up 
those concerns with warnings about the consequences to 
Bangladesh if this political crisis spins out of control. 
Everything Bangladesh wants and needs today, tariff reductions, 
goodwill in Europe to maintain low tariffs there, continued use 
of Bangladesh military forces from U.N. Peacekeeping, which is 
a key source of revenues of the military, involvement in 
regional security and strategic frameworks, all of this will be 
put at risk if Bangladesh suffers a political implosion. And, 
on some level, Bangladesh's leaders already know this, but it 
always helps to remind them.
    And I hope that this committee hearing does that today. 
Thank you for allowing me to testify today.
    [The prepared statement of Mr. Sifton follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Chabot. Thank you very much, Mr. Sifton.
    Now members of the panel will have 5 minutes to ask 
questions of the witnesses. I will begin.
    It is too soon to say exactly how the elections will unfold 
in January. As history has shown, virtually anything is 
possible under Bangladeshi politics. However, we know that 
opposition leader Khaleda Zia met with Bangladesh's Sheikh 
Hasina 2 days ago, I believe, in which apparently some 
encouraging words came out--maybe a step forward. But at the 
same time, they split without an agreement, and Khaleda Zia 
still demands that Prime Minister Hasina step down from office 
and the caretaker government be put in place to oversee the 
national elections.
    Mr. Sifton, you already gave your analysis of what might 
happen. I would be interested to hear what Dr. Riaz and General 
Muniruzzaman think is the most likely scenario in your opinions 
to play out here? If you had to, what do you think is the most 
likely?
    Mr. Riaz. I mean, lately the meeting between opposition 
leader and the President, the President has a very limited 
constitutional power. In that case, how much he would be able 
to intervene in this kind of situation is not very clear. 
Previous situations in the history tell that it is not. But he 
has moral power. There is no doubt in my mind that the 
President does carry some moral power if he wants to, a very 
limited constitutional one.
    And going forward, in terms of these three scenarios that 
are mentioned, I am not very much optimistic about an inclusive 
election at this point, unless something dramatic happens, and 
that is why I was suggesting that at least some form of 
accommodation of the opposition's demand, including at least a 
cabinet not headed by the incumbent PM, prime minister, would 
be an option or deferral of the election, but the likely 
scenario is a non-inclusive election that Bangladesh is going 
to experience. I wish I am wrong, but as of today, that is what 
it looks like.
    Mr. Chabot. Thank you. General?
    General Muniruzzaman. Thank you, Chairman.
    My first scenario is that Prime Minister Hasina will try 
and push toward a one-party election with disastrous 
consequences for country because if she does that, then the 
country will move in the path of instability because the post-
election violence is going to be even higher than the 
preelection violence.
    The second option that I see is that if she finds it 
absolutely difficult to push toward the one-party election, 
which is her first desire, then she will probably ask the 
President to declare a state of emergency, by which she can 
stall the elections, buy more time for herself and perhaps 
think that she can bid up on the opposition and civil society 
to soften the stun and then come back to elections maybe after 
a year or a year and a half.
    The third option that I see is that the level of violence 
goes so high that the military reluctantly is sucked into the 
process to restore some bit of stability in the country and 
provide security to citizens. But that is the third option that 
I see.
    But in total, the current government's stand in trying to 
solve the problem doesn't seem to be apparent because prime 
minister in the last couple of days in forming the so-called 
interim government has shown that she does not really care 
about what sort of accommodation is needed to solve the 
problem.
    Thank you.
    Mr. Chabot. Thank you.
    Mr. Sifton, having heard the two comments there, what do 
you think the U.S. and the world's response ought to be either 
in advance of the election or afterwards, depending on which 
option occurs?
    Mr. Sifton. Well, in the coming weeks and months, just 
because the leadership of the Awami League so far has not 
heeded the warnings that so many people have given doesn't mean 
the message shouldn't continue to be delivered. I think, at 
some point, Sheikh Hasina will have to come to terms with the 
reality that if she forces through a one-party government, that 
it will only lead to unended, open-ended protests, which will 
put at stake everything that Bangladesh wants and needs right 
now. She may not realize it today, but she eventually will have 
to realize it. The question is, will it be too late by the time 
she realizes it?
    So, in any case, I think the message just needs to be 
brought again and again and again. She does not have within her 
own cabinet and government enough people telling her what to 
do.
    Mr. Chabot. Thank you. My time is expired.
    The gentlelady from Hawaii is recognized for 5 minutes.
    Ms. Gabbard. Thank you, Mr. Chairman.
    Kind of the general thread that has been common through 
each of your testimonies has been your pessimism at a fair 
election and an open election as well as your agreement that if 
this does not occur that the post-election violence is likely 
to occur.
    I am wondering if you can tell me a little bit about that 
post election violence. Who is the target? Based on the 
scenarios that you are talking about, what constituencies are 
targeted in that scenario?
    Mr. Riaz. The violence that is anticipated is mostly the 
post-election violence. If you look back, in 2001 and previous 
elections it was largely the religious minorities, ethnic 
minorities; they become a target of all these attacks that we 
have seen previously. In case of an election, if it is a non-
inclusive election or unilateral election, however we identify 
it, definitely it would be the opposition activist political 
activists who would become target.
    But even before we reach to that kind of a situation, post-
election situation, the election itself would be very violent 
if this is a non-inclusive election because the opposition will 
tend not only call for a boycott, they might try to resist and 
hence the violence will spread. And I am afraid the violence 
might not stay within the boundaries of Bangladesh border. That 
is the most worrying part, and given the history of Bangladesh, 
of Islamist militancy, with left wing radicalism present, all 
these things are recipe for disaster. At this point, those are 
the ones that need to be taken into account as well.
    General Muniruzzaman. This time, the political violence in 
the post-election period is not only going to be resisting the 
government by the opposition, it will be a question of 
existence of the opposition forces within the country. There 
has been statements given out by members of the current 
government that this is the last election between what they 
call pro forces and anti forces. So it is not going to be a 
political process of protest, but it is going to be a fight for 
existence of forces which are not included within the 
government.
    I also see that the level of protests can go so violent 
that there would be widespread loss of life and property within 
the country. And this has ramifications of spillover beyond the 
borders of Bangladesh, and Bangladesh, which is so closely 
bordering with Indian state and the level of violence that 
exists in the fenced border between India and Pakistan, where 
India and Bangladesh, where Indian border guards regularly kill 
Bangladeshi citizens, it is likely that the spillover impacts 
would have a tremendous amount of negative impact on the Indian 
state and the Indian side.
    I also see impacts on minorities, both religious minorities 
and ethnic minorities. So, therefore, it is going to become 
extremely fragile and volatile in the post-election period.
    Ms. Gabbard. Thank you.
    Mr. Sifton, if in your answer you could also include your 
thoughts or your assessments of how the India-Bangladesh 
relationship is currently, especially as we are moving into 
this period.
    Mr. Sifton. Well, first, about the election being unfair, 
it is not even necessary that the election be unfair for there 
to be protests. Suffice it to say, if the election is run by a 
government which is not bipartisan, multipartisan, it will be 
perceived to have been unfair, and that is all that really 
counts. There will be protests even if the election was run 
fully fairly and freely. So it is really about the perceptions.
    Second, about the violence that would occur, who would be 
targeted? I think it is important to understand that a lot of 
the violence during hartals is not directed. It can be--
innocent people can be caught up in it. During hartals, many 
victims are ordinary civilians who are just going about their 
business trying to get around from point A to point B. It 
depends on what time of day it is. There are a lot of factors 
there. But it really is important to understand it is not 
necessarily violence directed at particular forces but rather 
widespread chaos where loss of life will be high.
    It is also important to recognize that it is not just 
political forces who have been targeted. The security forces 
themselves get targeted, and although they have a long track 
record of abuse, they are also are killed in this violence, 
ordinary police officers are killed.
    As far as the India-Bangladesh relationship goes, it is a 
very complex one. And I think it is full of, there are a lot of 
misperceptions about what India wants. It is very difficult to 
know exactly what India wants. But the important thing is for 
India to play a constructive role here and not back a winner or 
decide things like, but to insist that a process be run that 
mitigates and lessens the likelihood of widespread chaos and 
violence. That is the most important thing, not to pick a 
winner but to mitigate and lessen the likelihood of massive 
violence and human rights abuse.
    Ms. Gabbard. Thank you.
    Mr. Chabot. Thank you very much. The gentlelady's time is 
expired.
    The gentleman from Georgia, Mr. Collins, is recognized for 
5 minutes.
    Mr. Collins. Thank you, Mr. Chairman.
    I appreciate it. I have been moving in and out of meetings 
today as you well know. A couple of questions for any of you to 
answer and preferably all, Bangladesh has had a growing 
extremist movement pushing toward Islamic policies to be 
implemented. In that process, how likely is it that we would 
see civil strife between secular and religious groups to the 
extent that we have seen in some Middle Eastern, Egypt, other 
places where there is a growing problem? In your opinion, is 
that a growing problem? If so, and it was just mentioned in 
your testimony just a second ago about religious minorities. I 
would like to get your ideas, all three of your ideas on that.
    Mr. Riaz. The conflict between the secularists and the 
Islamist forces, particularly in the past years, we have seen 
the rise of Islamist forces in Bangladesh; perhaps for a decade 
we have seen that.
    However, I would not say that it has reached to a point 
that there would be a conflict as we have seen in case of the 
Middle East. It is my understanding, and my understanding based 
on my research and others that there would be a growing 
tension, and that tension is already present in the case of 
Bangladesh. But all other political uncertainty may contribute 
to this kind of situation. And that is a worrying part of it.
    By itself, this is not going to transform into a conflict 
between the Islamists and the secularists. But if there is 
continued uncertainty, violence and political situations, 
instability within the political situation that might 
contribute to that kind of a conflict in future. But in short 
term, I don't see that becoming a major element, though it 
would remain, constantly it will remain, as a reminder of 
Bangladeshis, I would say the issue of identity is there; of 
course, political ideological differences are there. And over a 
period it has grown. It might continue.
    Mr. Collins. Okay.
    Mr. Riaz. Thank you.
    General Muniruzzaman. Thank you, sir.
    What I would like to say, what I said in the beginning, I 
emphasize again, any state of instability within the country by 
running a one-party election that the government plans now will 
have created a space for nonstate actors and extremist forces 
to thrive. And we already see some early signs of that in the 
form that there has been resurgence of small, splinter 
terrorist organizations which are surfacing in the last couple 
of months were completely not present in the scene before.
    We also see that there has been impact of the return of 
migrant workers in the country who bring a different kind of 
ideology of Islam back to Bangladesh which is based on the 
principles of Sufi Islam, and there is a silent clash of the 
Sufi Islam and Wahhabi brand of Islam that comes back with the 
migrant workers.
    We have also seen the impacts, without solid proof, of some 
Middle Eastern NGO money coming into Bangladesh and having its 
impact. We see that there has been a marginalization of people 
at the grass root and nondelivery of services by the state to 
its own citizens and people, so, therefore, the space has been 
created by that kind of a state of what I call the Hamas 
impact, where the state does not exist; the nonstate actors 
exist. Therefore, that kind of a situation is also bringing the 
specter of Islamic forces coming into the play and creating 
more space for themselves. But I don't really see the kind of 
play that we are seeing in the Middle East or in the Arab 
Spring coming to Bangladesh any time soon. But I see that there 
will be a resurgent forces of Islamic elements coming into the 
fore if the government persists with the one-party election and 
destabilizes the country.
    Mr. Sifton. I think it is a question of what it means to 
thrive. There is thriving and then there is thriving. It would 
be a mistake to fear a situation in which established political 
forces are so weakened that they cease to exist, and there is a 
vacuum which can only be filled by radical Islamist groups 
which suddenly come on the scene. That is not going to happen. 
The two established political entities, whatever happens, are 
going to remain on the scene for some time. What will happen, 
this thriving that the other witnesses are talking about, 
doesn't necessarily mean thriving politically, but the bigger 
fear is that there are radical groups which would ally 
themselves with the established political orders. The 
established political groups would ally themselves with radical 
groups in order to gain political strength.
    Mr. Collins. But could we also be, in your testimony, could 
you be giving more of a Western thought of what thriving 
politically is and what may be thriving as they are mentioning 
in the destabilization and in an environment that is, we think 
of thriving----
    Mr. Sifton. They are not going to win elections.
    Mr. Collins. Right. But they don't have to----
    Mr. Sifton. To be dangerous.
    Mr. Collins. So I think sometimes when we look at this, 
that is the sphere of us looking at it from American policy 
eyes that we look at it in terms of our, what we believe 
through the elections process they are talking about, it is 
interesting to hear the dichotomy here of the two answers there 
is a problem from our perception and the perception on the 
ground. So, Mr. Chairman, I think that is something that, if my 
time is over, I think that is something that I think has 
infiltrated this region for a long time and is understanding 
the ground work on definitional issues and things that we can 
work on, you know, from American perspective and a foreign 
policy perspective and also from the indigenous perspective as 
well. So I appreciate your having this hearing, and I thank you 
very much.
    Mr. Chabot. I thank the gentleman for his comments.
    The gentleman's time is expired.
    The gentlelady from New York, Ms. Meng, is recognized for 5 
minutes.
    Ms. Meng. Thank you, Mr. Chairman.
    Thank you, Madam Ranking Member.
    As we all know, Bangladesh is an important partner for the 
United States both as a strategic geographical ally and as a 
nation that yearns for the political and cultural tolerance, 
values that here in America we work tirelessly to promote 
abroad.
    My first question concerns accidents in manufacturing 
sites, like Rana Plaza and Tajrin Garments, reflecting a system 
of workers' protection and labor standards that require 
improvement. Mr. Sifton has outlined the need for government 
institutionalized labor reform, like the formation of unions in 
his written testimony.
    How can the United States facilitate the explicit writing 
and passage of such reform and what are some other avenues 
through which we can incentivize real and quantitative labor 
reform?
    Mr. Sifton. So what is going on right now with the GSP road 
map to return Bangladesh to getting GSP is the best leverage to 
get the legal reforms and the institutional reforms that 
Bangladesh's Department of Labor to the labor law itself. The 
fact of the matter is the federations on the ground and the 
other institutions, labor rights organizations on the ground, 
know fully well exactly what is wrong with Bangladesh's labor 
law and what needs to be fixed.
    They have written memos on it with recommendations. It is 
just a question of getting those political changes made to the 
law and getting the department of labor in Bangladesh to make 
institutional changes to make those labor law provisions, you 
know, real, so that workers are actually protected.
    But all of that will be put at risk if there is a political 
crisis in Bangladesh and that is why this is such a serious 
moment in the political realm.
    General Muniruzzaman. Bangladeshi labor standards have a 
lot of questions to be answered. On this, I suggest that our 
international friends and partners, particularly the United 
States and the bigger markets where Bangladeshi goods go, 
particularly the ready-made garments, there has to be also 
positive kind of engagement both on a public and private sector 
involvement with our industry in Bangladesh. So I am calling 
for the U.S. Government to engage Bangladesh and its industry. 
I am also calling for the U.S. private sector, the retailers, 
the big Walmarts of the world, to come forward and engage 
Bangladesh effectively and positively.
    So there has to be a bipartisanship kind of effort in 
trying to look at the problem and solving the problem. The 
labor standards are in a very sorry state. We need labor law 
reforms. We need the federations to come and play effective 
roles. But the existing laws that exist in the country are also 
very laxly implemented. So we need better governance by the 
government to implement the existing laws so the existing laws 
also are not bypassed by the people and the industry, and we 
don't want to see the kind of crony capitalism where 
industrialists close to the government in power can do things 
and go about doing things with impunity. Thank you.
    Mr. Riaz. It is largely a matter of shared responsibility. 
What happened in Bangladesh, the ready-made garment sector, for 
example, is a result of private entrepreneurship, and it has 
benefitted from this lax administrative and labor laws. But it 
is time to utilize those, implement those. And more 
importantly, it cannot be done only from within the country. 
Given that it is largely for the export sector, there has to be 
some commitment from outside, and here I see the role of 
international community, particularly the United States and the 
European Union, given the European Union is the largest market 
of ready-made garments, there should be political engagement. 
Penalizing is not going to help at this moment. More positive 
engagement is necessary, not only at the government level but 
at the civil society level and also with those who own the 
industry, the entrepreneurs that make contributions and the 
laborers, basically who have built this industry from 
absolutely nothing.
    Ms. Meng. Thank you so much.
    I yield back.
    Mr. Chabot. The gentlelady yields back.
    We will begin a second round now. I will recognize myself 
for 5 minutes.
    I would now like to focus at least my attention on 
Bangladesh's international criminal tribunal.
    Mr. Sifton, if I could start with you, what actions might 
the U.S. Government take at this point to urge the Government 
of Bangladesh to bring the tribunal into compliance with 
international standards, assuming that they are not yet, given 
the Bangladeshi Government's unwillingness thus far to 
implement the recommendations of U.S. Ambassador for Global 
Criminal Justice, Stephen Rapp, which were offered at the 
request of the Bangladeshi Government about a year and a half 
ago? What would your comment be on that?
    Mr. Sifton. Well, again, as with a lot of other issues, the 
patient isn't taking the medication, so it is very tough to 
know exactly what to do in that context.
    Ambassador Rapp has made some very good recommendations. I 
feel that Human Rights Watch has made some very good 
recommendations. But they haven't been taken to heart. There is 
no leverage as there is with the Cambodian tribunal with 
funding because there is no international funding for the 
tribunal so there is very little left to do except continue 
insisting on it.
    But the one key thing that really drives home the reality 
is the depoliticization. It is one thing to talk about the 
shortcomings, procedural shortcomings of the tribunal. It is 
another to talk about the execution of defendants, the death 
penalty, in a political context. And I think there is a place 
where the European Union, which is opposed to the death 
penalty, and the U.S., which has a more nuanced view, can get 
together and say, whether you support the death penalty or not, 
carrying out death sentences, executions, in a political 
context either in the lead up or the immediate aftermath of an 
election is a bad recipe for the perception that there is real 
justice going on. And that is a warning that the EU and the 
United States can make together. Even India could say that.
    Mr. Chabot. Thank you.
    Let me ask any of the witnesses who would like to comment 
on this, there have been reports about several disappearances 
of witnesses for the defense, one of whom turned up apparently 
without explanation in an Indian jail. There are reports about 
the forced resignation of the supreme court justice over 
allegations of inappropriate conversations outside the 
courtroom with prosecutors, allegations about the defense being 
limited in one case to about three witnesses, and then the 
prosecution having far more witnesses than that.
    Are there any comments on those? Are they true as far as we 
know? What concerns relative to fairness and international 
standards do they raise? Especially, as was indicated, when we 
were dealing with potential death sentences here. I would be 
happy to hear from any of the witnesses that might want to 
comment.
    Mr. Sifton. One just quick factual point is that the 
supreme court justice in question who resigned did not deny the 
allegations that he had improperly communicated with 
prosecutors. These were conversations that were intercepted by 
some means and given transcripts to the Economist magazine, 
which published them, and in resigning, he never denied the 
substance of those. So those allegations are out there. They 
haven't been rebutted, and they are very, very serious, but I 
just wanted to factually state this.
    Mr. Chabot. So they are not necessarily just allegations 
that this happened, at least in that case? I guess the 
witnesses either were allowed three witnesses and the other 
side allowed more or they weren't; these are facts that can be 
determined independently, I am assuming.
    Would any of the other witnesses like to comment on this?
    General Muniruzzaman. Although there is widespread 
acceptance of the trial in Bangladesh by the Bangladesh 
citizens, but many Bangladeshis are not comfortable with the 
kind of standards that we have maintained in the trial because 
to bring closure to a case of historical proportion, we have to 
have standards at the highest order of international standards 
of legal practices.
    The questions that you, Mr. Chairman, point out were 
allegations which were not clarified by the government, so, 
therefore, there is a wide perception that perhaps those 
happened. And if those are true, then even many citizens would 
become very uncomfortable when such sentences are going up to 
the level of death sentences passed against the people who are 
convicted.
    I think we, not only as citizens, but as international 
friends who observe the trials, we should continue to engage 
Bangladesh Government in trying to encourage them to have high 
moral standards of international legal standards in the courts 
and the practices.
    Mr. Chabot. Thank you very much.
    Doctor, did you want to comment?
    Mr. Riaz. I will briefly state that two things are here: 
Procedural, some of them procedural problems that we have seen. 
Of course, that needs to be recognized and therefore 
international engagement with international crime tribunals 
need to be continued. However, at the same time, we need to put 
this in the historical context of Bangladesh that over the past 
42 years. These trials are also a matter of closure of the 
Bangladeshis of the past.
    This needs to in some way, a nation was a victim in 1971, 
and I personally don't consider it as a victim of one 
individual who was killed. The issue of what crime is largely 
related to the nation, and that is why it needs to be put into 
this historical context and understand why this was necessary, 
and why there is a widespread support.
    So, procedural questions notwithstanding, it should not be 
separated from the issue of justice for the victim, and here I 
see victim the whole nation as a victim rather than 
individuals.
    Mr. Chabot. Thank you very much.
    My time is expired. I now recognize the chairman of the 
Foreign Affairs Committee, Ed Royce, the gentleman from 
California.
    Chairman Royce. Well, thank you, Mr. Chairman.
    I would like to get down to the bottom line in terms of 
what has happened in Bangladesh and what I think is the 
underlying reason. I don't think it is dissimilar to what I 
have seen in Pakistan.
    In Pakistan, you have the Deobandi schools, and out of 
these particular 600 that we are most concerned about are 
graduated young men who believe in a jihadi philosophy. Now 
they are able, because of their use of tactics of terror, to 
then move against a domestic population that maybe does not 
share their same views, and they usually target their wrath 
against, well, in Pakistan, it was Hindus and Christians and 
others.
    In Bangladesh today, if we go back to 1947 and we know a 
lot of this happened at the outset, but you have a total of 49 
million Hindus missing from the rolls. Many of them of course 
went to India, but recently, we have a situation where you have 
got 1,500 Hindu homes, 50 Hindu temples burned to the ground, 
and it is not just Hindus. It is also Christians. It is also 
atheists. It is also animists. It is those who do not take the 
most fundamentalist viewpoint.
    Now that is not most people in Bangladesh. It is a small 
percentage of the population. But it is that population that 
has been radicalized and has not been given an education, a 
wider, broader education. Indeed, the books that they study in 
are not even in the Bengal language. They are not even in the 
Bangladeshi tongue. They are studying something that they don't 
even understand. They don't know Arabic. So, when they 
graduate, they don't know anything except what they have been 
brainwashed to believe, which is that it is their mission to go 
out and try to force conversions. And they do that by 
oftentimes by kidnapping girls or kidnapping women. They do 
that also by sowing terror.
    And we have a situation also where local police sometimes 
blame the Hindu population, despite what I have just described 
to you, all of that destruction, when that last came, up a mob 
of thousands descended on the capital, as you know, thousands 
of radicals, demanding a change in the constitution, demanding 
that basically their views supersede the views of the wider 
community. But some police said, well, you know, we have a 
situation where the Hindus created some of the violence because 
they originally interfered with the construction of a mosque.
    Now, unless the state in Bangladesh is ready to come 
forward and close these particular Deobandi schools, the ones 
that have been identified as the most radical, the ones that 
are telling their charges, their graduates, to go out and 
commit this kind of violence, Pakistan, like Bangladesh, are 
going down roads here where the consequences will eventually 
engulf the state itself. You can see what is happening over in 
Pakistan when you don't confront it, and many, many times we 
have raised this with officials inside Pakistan because we have 
seen the results.
    It is the same schools, right? It is the same movement. It 
is the same tactics. The results are going to be the same. You 
have a continued, effective removal of people who do not adhere 
to the views of the radicals.
    So just a quick response if you will, and do you think my 
judgment is correct here? Is this the wider, deeper problem?
    Mr. Riaz. The schools that you are referring to, 
Congressman, are the Deobandi schools. There is a large number 
of them, of course. This issue has been addressed in some ways 
but not necessarily as robustly as it should be. There should 
be reform of education sector, and more importantly, these are 
the schools, the madrases, which are producing youth who are 
not exactly being able to participate in the economic activity. 
So there needs to be a reform.
    But at this point, I will say this is small numbers, and 
whether Bangladesh should travel the path that Pakistan has 
already traveled depends on the political will and overall 
political circumstances as well. And that is where I see this 
instability in Bangladesh is contributing to this kind of 
situation.
    Chairman Royce. Well, you are down to a Hindu population 
that is now at 8.5 percent, and on an ongoing basis, we see the 
plight of minority populations. So the government is not doing 
enough to protect them. And part of that protection is to do 
something about these schools.
    Mr. Riaz. I completely agree with you, Congressman. There 
have been structural issues. The Bangladeshi population, if you 
look into as I have done, from 1951 it has been, you know, the 
dwindling population, which I call the missing millions. And 
the state has never done what they should be doing. 
Irrespective of the political party in power, the Bangladeshi 
state has failed to protect this minority, not only the Hindus; 
as we have seen this situation, in the Buddhist population 
lately in Ramu that is what we have seen. This is an absolutely 
terrible situation that we are witnessing.
    Unless the state steps up and protects this one and that is 
why when Congresswoman asked about the issue of the post 
election violence, these are the most vulnerable populations 
that we see. And they become the first target of this kind of 
situation. So, not only in the context of the election, 
overall, these are the issues that need to be addressed. And we 
need, you know I would urge the international community to work 
closely with not only the Bangladesh Government but the civil 
society to make sure that these things are not repeated. We 
have seen it enough. And at some point, Bangladeshis and its 
partners and wellwishers need to stand up and say enough is 
enough. And this is the time we should say enough is enough.
    Chairman Royce. Thank you, Doctor.
    I appreciate it.
    Mr. Chabot. The gentleman's time has expired.
    The gentlelady from Hawaii is recognized for 5 minutes.
    Ms. Gabbard. Thank you very much.
    I appreciate our full committee chairman's remarks of 
really taking the long view on this and looking at the root 
cause of some of these problems we have seeing the symptoms of 
and think it has to be included in the conversation.
    I wanted to pick up a little bit further on the issue of 
the tribunals. Despite the obvious flaws with the tribunals, 
clearly, this is an issue of bringing about justice 40 years 
later that is absolutely necessary for these heinous acts of 
violence against humanity.
    A little bit of a two-part question. It is my understanding 
that there was violence against Hindus and other minorities 
after recent rulings by the crime tribunal convicting some of 
these prominent leaders who were complicit in the 1971 attacks.
    If you could talk to me about how the government responded 
to these attacks in any way, if they did, and what more could 
be done to reduce them further? As well as what other forms of 
justice can be brought about for the families of the over 3 
million victims of the massacres during that 1971 liberation 
movement?
    You can start, Dr. Riaz.
    Mr. Riaz. Thank you.
    In regard to the violence that we have seen post the 
verdict throughout the whole country, and there has not been 
any effective measures from the government, and unfortunately, 
the government not only failed to protect them; subsequently, 
the government has not provided any support to them. The lip 
service is all that we have seen, same we have seen from the 
opposition party.
    So, at this point, it is not only we cannot simply wait and 
see what the government is going to do. It is more important 
that the civil society and particularly those NGOs who are 
active the rural areas, they need to work very closely in 
somehow preventing those kinds of things. Instead of waiting 
until the next thing happens, it needs to be preemptive rather 
than post-event some sort of support.
    So that is an issue that, going forward, one of the reforms 
of election and post-election situations are there. It is not 
only about today. It is not about tomorrow. There has to be 
some kind of an arrangement and it is an international support 
that Bangladesh needs, and civil society needs to be included 
in this.
    As for the international crime tribunal, as I have 
mentioned, and as, Congressman you have mentioned, that it is 
about the justice, and the heinous crime that has been 
perpetrated 42 years ago, the nation became a victim and there 
has to be justice. And this cannot be simply seen as a 
procedural matter one trial at a time. I think it is a matter 
of historical proportion, and that is why when we are talking 
about this 3 million people who have been killed, millions have 
been suffered, all things need to be taken into account. And 
there needs to be a closure, and that is what this trial is all 
about. That is how I see it. That is my opinion, although I 
have reservations about the trial process.
    Ms. Gabbard. Thank you.
    General Muniruzzaman. In the violence that took place 
against minorities, not only Hindus by particularly also 
against Buddhists in the Ramu temple area, the government 
completely failed to protect minority rights and their property 
and their lives. But I would also like to mention here that 
minority casualties and violence did not only take place by 
Islamic elements in Bangladesh. It was a result of the very 
confrontation nature of politics between the two parties. So, 
therefore, a lot of violence was perpetrated by both the 
parties. In the case in Santhia, there were press reports 
evidence that the violence against the Hindus in the Pabna 
district recently was carried out by members close to the 
government's ruling party and the press evidences came out 
where the Bangladesh Human Rights Commission had charged the 
government to say that the perpetrators must be brought to 
justice.
    So there is a kind of a proxy war that is going on between 
the two political elements or the two preliminary coalitions 
and parties, and somehow, the minorities happen to be in the 
middle, and they become the victims.
    I would urge that the Government of Bangladesh take a solid 
stand in protection of minorities who are very much a part of 
Bangladesh.
    Mr. Sifton. I would only add to those excellent remarks by 
both witnesses that the issue really boils down to the 
politicization of the process. It has become politicized, and 
that has hurt it. It has hurt it as a vehicle for justice, as a 
vehicle for truth, as a vehicle for healing, everything, 
because it has been politicized, that has been impacted.
    The fact that the government is allergic to any kind of 
criticism whether it comes from Human Rights Watch or in 
publications by the Economist or by Stephen Rapp, it is in some 
cases an indicator of that.
    On the issue of violence against minorities, it is a 
serious problem. And I think Mr. Royce is right to bring it up, 
you are all right to focus on this. The government has an 
obligation to stop violence against minorities, whether it is 
committed by political parties or by more radical elements.
    The only thing I would observe, though, is that there is a 
distinction here between Pakistan. In Pakistan, you have a 
government security forces, parts of which are supporting 
radical elements within the government.
    Thankfully, we do not yet have any evidence of that sort of 
thing going on here, where the apparatus of state security 
services is actually fomenting radical groups for their own 
proxy reasons. If that were to occur, then you we really have a 
very dangerous situation. But thankfully, it has not yet.
    Mr. Chabot. Thank you.
    The gentlelady's time is expired.
    I would like to thank our panel this afternoon for their 
testimony. I think it was excellent. I want to particularly 
thank the General for flying all the way from Bangladesh to be 
present at this hearing.
    Members will have 5 days to supplement their remarks or 
submit questions. If there is no further business to come 
before the subcommittee, we are adjourned. Thank you.
    [Whereupon, at 4:11 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[Note: Material submitted by the Hindu American Foundation (HAF) is not 
reprinted here but is available in subcommittee records.]

                                 <all>

</pre></body></html>
